     Department of Homeland Security





        FEMA Should Recover $2.8 Million of Public 

      Assistance Grant Funds Awarded to the Town of 

    Dauphin Island, Alabama – Hurricanes Gustav and Ike





DA-13-02                                     November 2012

                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security
                                                Washington, DC 20528 1 www.Qig,dhs.goy


                                                          NOV       6 2012

    MEMORANDUM FOR:




    FROM :
                                          Assista t Inspe ctor Gene al
                                          Office of Emergency Management Oversight

    SUBJECT:                              FEMA Should Recover $2.8 Million of Public Assistance Grant
                                          Funds Awarded to the Town 0/ Dauphin Island, Alabama -
                                          Hurricanes Gustav and Ike
                                          FEMADis aster Numbers 1789 and 1797
                                          Aud it Report Number DA-13-02

    We audited Public Assistance (PAl funds awarded to the Town of Dauphin Island, Alabama
    (Town) (FIPS Code 097-19744-00). Our audit objective was to determine whether the Town
    acco unted for and expended Federal Emerge ncy Management Agency (FEMA) grant funds
    according to Fed eral regulations and FEMA guidelines,

    As of November 11, 2011, the Town had received PA awards t otaling $5.5 million from th e
    Alabama Emergency Management Agency (State), a FEMA grantee, fo r damages resulting from
    hurricanes Gustav and Ike, which occurred in Augu st and September 2008, respectively. Th e
    awards provided 75 perce nt FEMA funding for debris removal activities and repair of damaged
    roads and culverts. Tabl e 1 identifies the specifics fo r each disaster.


                                                               -
                                         Table 1 Disaster Specific Information
                                                                               Amount          large          Small
                                                                                                      1
                                     OJsaster             Disaster             Awarded        Pmjects       Projects
              Disaster               Nu-mber         Date                      (Millions)     A.,yardep     Awarded
          Hurricane Gustav            1789   August 29, 2008                     $2.6             4              3
            Hurricane Ike             1797   September 12, 2008                    2.9            5              4
                   Total                                                         $5.5             9              7

    We reviewed costs totaling $5.3 million claimed under the nine large projects awarded und er
    both disasters (see Exhibit A, Schedule of Projects Audited). The audit covered the period
    August 29, 2008, to March 23, 2012, during which the Tow n received $3 .4 million of FEMA


    1 Federal   regulations in effect at the time of hurricanes Gustav and Ike set the large project threshold at $60,900.
i
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

funds under the projects reviewed. At the time of our audit, the Town had not completed work
on all projects, and therefore had not submitted a final project expenditure claim to the State.

We conducted this performance audit between January and July 2012 pursuant to the Inspectorf
GeneralfActfoff1978, as amended, and according to generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based upon
our audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based upon our audit objective. We conducted this audit by applying
the statutes, regulations, and FEMA policies and guidelines in effect at the time of the disaster.

We reviewed 100 percent of contract costs, interviewed Town, State, and FEMA officials;
reviewed the Town’s procurement policies and procedures; reviewed applicable Federal
regulations and FEMA guidelines; and performed other procedures considered necessary to
accomplish our audit objective. We did not assess the adequacy of the Town’s internal controls
applicable to its grant activities because it was not necessary to accomplish our audit objective.
However, we gained an understanding of the Town’s method of accounting for disaster-related
costs and its policies and procedures for administering activities provided for under the FEMA
award.


                                         BACKGROUND

Hurricanes Gustav and Ike occurred within a few weeks of each other, which made it difficult
for FEMA to separately identify damages for the two disasters. Therefore, based on the
preliminary damage assessments, FEMA decided to allocate 55 percent of the damages to
Gustav and 45 percent to Ike when preparing project worksheets.


                                       RESULTS OF AUDIT

FEMA should recover $2.8 million of PA funding. Although the Town generally accounted for
FEMA funds on a project-by-project basis, as required by Federal regulations and FEMA
guidelines, we identified $1,969,541 of project funding that should be deobligated and put to
better use because work under the projects is complete and the funding is no longer needed.
We also identified $912,782 of Federal funds that the State overpaid the Town under several
projects, and $6,919 of ineligible project costs.

Finding A: Unneeded Funds

PA funding totaling $1,969,541 should be deobligated because work under the projects is
complete and the funding is no longer needed. The Town completed all authorized work under

   www.oig.dhs.gov                              2                                    DA-13-02
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

the projects as of April 2010 and incurred actual costs totaling $2,833,242. This amount is
$1,969,541 less than the total amount FEMA estimated and obligated under the projects.
Therefore, FEMA should deobligate the $1,969,541 of unused funds and put them to better
use. Table 1 shows the affected projects.

                  Table 1. Funds Put to Better Use—Hurricanes Gustav and Ike
             Project                         Amount        Actual      Unneeded
            Number          Disaster        Awarded        Costs         Funding
               64       Hurricane Gustav    $2,005,998    $1,270,433       $735,565
               87       Hurricane Gustav         81,400       16,246         65,154
            Subtotal                        $2,087,398    $1,286,679       $800,719
                7         Hurricane Ike     $1,641,271    $1,039,445       $601,826
               15         Hurricane Ike        456,732       443,502         13,230
               18         Hurricane Ike        550,782        50,324        500,458
               20         Hurricane Ike         66,600        13,292         53,308
            Subtotal                        $2,715,385    $1,546,563    $1,168,822
              Total                         $4,802,783    $2,833,242    $1,969,541

According to 44 CFR §206.205 (b)(1), the grantee shall account for eligible costs for each large
project and certify to FEMA that the reported costs were for eligible disaster work as soon as
practicable after the subgrantee has completed the approved work and requested payment.
Further, FEMA will review the accounting, and determine the eligibility of the costs whether
project funds should be obligated or deobligated. However, as of January 2012, approximately
29 to 36 months after the work had been completed, several projects had not been
deobligated. On April 9, 2009, State officials asked FEMA to close project 18. However, FEMA
did not close the project. FEMA officials said that they rely on the grantee to conduct closeout
activities. On March 23, 2012, we learned that FEMA and the State were in the process of
closing the projects and deobligating the unneeded funds.

According to FEMAfStandardfOperatingfProceduref9570.14,fProgramfManagementfandfGrantf
Closeout, paragraph 9.2.1, the grantee should reconcile costs within 90 days of the date that
the subgrantee completes the project. We consider 90 days after the subgrantee has
completed the approved work and requested final payment a reasonable amount of time for
the grantee to complete its review of costs claimed and submit an accounting of eligible costs
to FEMA. Further, Federal appropriations laws and the Statement of Federal Financial
Accounting Standards (SFFAS) require Federal agencies to record obligations in the accounting
records on a factual and consistent basis throughout the Government.2 Reducing unneeded
funding in a timely manner (1) releases funds to cover cost overruns on other projects
associated with the disaster, (2) provides a more accurate status of PA costs for a disaster, and

2
 U.S. General Accounting Office’s Principles of Federal Appropriations Law, 3rd edition, volume Il, February 2006,
chapter 7, section B: Criteria for Recording Obligations (31 U.S.C. § 1501).


    www.oig.dhs.gov                                      3                                           DA-13-02
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

(3) is consistent with appropriations law and SFFAS Number 5, which require
obligations/liabilities in FEMA’s accounting system to be recorded accurately and supported.
Therefore, FEMA should promptly deobligate the $1,969,541 of unneeded funding under the
projects and put those funds to better use.

StatefandfTownfResponse. State and Town officials agreed that the FEMA funding for the
projects should be adjusted to account for actual eligible documented costs. They said that
they welcome the assistance of FEMA personnel in completing final inspections on the projects.

Finding B: Overpayments

The State overpaid the Town $912,782 of Federal funds for several projects under hurricanes
Gustav and Ike. The State paid $3,037,714 of Federal funds under the projects. However,
based on actual eligible costs, the Town should have received $2,124,932. The $912,782 of
overpayments were made between March 10, 2009, and April 10, 2010. As of January 2012,
the State has not recovered the overpayments. FEMA should instruct the State to promptly
recover the overpayments from the Town and return the excess funds to the agency. Table 2
shows the affected projects and related overpayments.

Federal regulation 44 CFR 13.20(a)(2) states that a State’s accounting procedures must be
sufficient to permit the tracing of funds to a level of expenditures adequate to establish that
such funds have not been used in violation of the restrictions and prohibitions of applicable
statutes.

                Table 2. Overpayments Made Under Hurricanes Gustav and Ike
         Project                                   Federal Share
        Number          Disaster       Payments         (75%)       Overpayment
           64      Hurricane Gustav     $1,354,049       $952,825       $401,224
           87      Hurricane Gustav         61,050         12,184          48,866
        Subtotal                        $1,415,099       $965,009        $450,090
            7         Hurricane Ike     $1,045,448       $779,584       $265,864
           20         Hurricane Ike         49,950           9,969         39,981
           18         Hurricane Ike        184,715         37,743         146,972
           15         Hurricane Ike        342,502        332,627           9,875
        Subtotal                        $1,622,615     $1,159,923        $462,692
          Total                         $3,037,714     $2,124,932        $912,782

The overpayments occurred because the State did not adequately monitor and reconcile the
payments made to the Town. Some of the State’s payments appear to be based on the award
amount rather than documented actual incurred costs. Further, State officials told us that the
overpayments under debris removal Projects 64 and 7 for hurricanes Gustav and Ike,


   www.oig.dhs.gov                              4                                     DA-13-02
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security

respectively, most likely occurred because the total debris removal costs of the two disasters
had been allocated between the two projects. As a result, debris removal invoices for the two
projects may not have been properly reconciled before payments were made to the Town. The
Town did not promptly identify the overpayments and return them to the State because it was
not regularly reconciling project receipts and expenditures.

The Federal overpayments identified in this audit are not isolated incidents. During our
reconciliation of the payments made by the State, we noted that the State made similar
overpayments to the Town, totaling $859,785, under two other disasters (hurricanes Ivan3 and
Katrina) that were not part of this review. The State identified and recouped the $859,785 by
reducing payments to the Town under hurricanes Gustav and Ike.

StatefandfTownfResponse. State and Town officials said that they have agreed on a reasonable
repayment plan associated with the overpayments identified in this report. This payment plan
will be initiated once FEMA has determined the actual documented cost of the open large
projects. In addition, State officials said that they will review disbursement procedures for all
large projects to ensure that all PA programmatic guidance governing disbursements is
followed. State officials also said that they will review the Town’s procedures for compiling and
maintaining documentation to ensure that eligible costs charged to FEMA projects are
adequately supported.

Finding C: Nondisaster Charges

The Town’s claim of $326,837 under Project 84 (West End Park) included $6,919 of charges for
damages unrelated to the disaster. This claim consisted of $6,044 of charges to repair an
irrigation system and $875 to construct a volleyball court in the park. Town officials told us that
the park did not include a volleyball court prior to hurricanes Gustav or Ike. Further, we noted
that the damages to the facilities were caused by earlier storms. Federal regulation 44 CFR
206.223(a)(1) states that an item of work must be required as a result of a major declared
disaster event to be eligible for FEMA financial assistance. Therefore, we question the $6,919.

StatefandfTownfResponse. State and Town officials agreed with this finding and related
recommendation.




3
    Hurricane Ivan was not included in our audit.


       www.oig.dhs.gov                                5                               DA-13-02
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                                     RECOMMENDATIONS 


We recommend that the Regional Administrator, FEMA Region IV:


       Recommendation #1: Deobligate $1,969,541 (Federal share $1,477,156) of unneeded
       Federal funding and put it to better use (finding A).

       Recommendation #2: Instruct the State to promptly recover the Federal overpayments
       totaling $912,782 and return them to FEMA (finding B).

       Recommendations #3: Instruct the State to review its cash disbursement and
       reconciliation procedures to ensure that payments to subgrantees are in compliance
       with 44 CFR 13.21(b) (finding B).

       Recommendations #4: Instruct the State to notify the Town to implement procedures
       to ensure that project receipts and expenditures are properly reconciled (finding B).

       Recommendation #5: Disallow $6,919 (Federal share $5,189) of ineligible costs claimed
       for nondisaster-related damages (finding C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Town, State, and FEMA officials during our audit. We
also provided a draft report in advance to these officials and discussed it at the exit conference
held on July 11, 2012. After the exit conference, State and Town officials provided a written
coordinated response to the audit findings and recommendations. Their comments, where
appropriate, have been incorporated into this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.




   www.oig.dhs.gov                              6                                    DA-13-02
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Adrianne Bryant, Audit Manager; Mary Stoneham , Auditor-in-charge; and Amos Dienye,
Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




   www.oig.dhs.gov                             7                                   DA-13-02
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

                                                                                   EXHIBIT A

                              Schedule of Projects Audited 

                           August 29, 2008, to March 23, 2012 

                               Town of Dauphin Island, AL 

                       FEMA Disaster Numbers 1789 and 1797-DR-AL


   Project                           Amount      Amount            Amount
   Number              Scope         Awarded     Claimed          Questioned       Findings
Hurricane Ike:
      64           Sand Removal      $2,005,998 $2,005,998           $1,136,789      A&B
      84           Repairs to Park      326,837    326,837               $6,919       C
      87           Hauling Debris        81,400     81,400              114,020      A&B
      61            Monitoring           76,761     76,761                    -
  Subtotal                           $2,490,996 $2,490,996           $1,257,728
  Hurricane
   Gustav:
       7           Sand Removal      $1,641,271 $1,641,271             $867,690      A&B
                     Clean Drain                                                     A&B
     18                                550,782     550,782              647,430
                       Ditches
                       Rock to
     15            Stabilize Roads      456,732    456,732               23,105      A&B
     20            Hauling Debris        66,600     66,600               93,289      A&B
      6              Monitoring          62,804     62,804                    -
   Subtotal                          $2,778,189 $2,778,189           $1,631,514
    Total                            $5,269,185 $5,269,185           $2,889,242




 www.oig.dhs.gov                             8                                    DA-13-02
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                                                                            EXHIBIT B 

                                   Report Distribution List 

                              Town of Dauphin Island, Alabama

                         FEMA Disaster Numbers 1797 and 1789-DR-AL 


Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison. FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-009)

Grantee

Public Assistance Coordinator, Alabama Division of Emergency Management

State

State Auditor, Alabama

Subgrantee

Mayor, Dauphin Island, Alabama




   www.oig.dhs.gov                           9                            DA-13-02
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
